No.

IN THE
SUPREME COURT OF THE UNITED STATES

In re JOHN H. TODD

PETITIONER

VS.
STATE OF OREGON - RESPONDENTS

PROOF OF SERVICE
I, John H. Todd, do swear and declare that on this date,
June 12 r 2021, as required by Supreme Court Rule 29 that I have
served the enclosed PETITION FOR WRIT OF MANDAMUS on each party
to the above proceedings by depositing an envelope containing
the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid.

Oregon Attorney General

1162 Court St. NE Salem, OR. 97301

Judge Danial Bunch

316 Main St. Klamath Falls, OR. 97601

Klamath County Circuit Court Judge
Klamath County Circuit Ct. 316 Main St. Klamath Falls, OR. 97601

I DECLARE UNDER PENALTY OF PERJURY THAT THE FOREGOING IS TRUE
AND CORRECT.

Executed on

f'L) 3LO’Z.l

CERTIFICATE OF SERVICE

I John H. Todd, certify that I served on the persons below
a full, true and correct copy of PETITIONER"S PETITION FOR WRIT
OF MANDAMUS that I have filed with the Supreme Court of the
United States. I have done so because they are parties to a
related case in the 9th U.S. Circuit Court of Appeals No.
21-35243 U.S.D.C. Case No. 3:19-CV-2029-HZ (Oregon) and have
done so by first class postage prepaid mail on this date.

Patrick M. Ebbett

Janet M. Schroer

Oregon Dept, of Justice
1162 Court St. NE
Salem, OR. 97301

1000 SW Broadway
Suite 2000
Portland, OR. 97205

George A. Burgott
777 High St. Suite 300
Eugene, Oregon 97401

Graham M. Sweitzer
1050 SW 6th Ave. Suite 1600
Portland, Oregon 97204

Michael T. Stone
P.O. Box 567

Gerald Warren, Aaron Hisel
901 Capitol Street NE
Salem, Oregon 97301

Hillsboro, OR. 97123
Sarah K. Morehead
Asst. U.S. Attorney
700 Stewart St. Suite 5220
Seattle, Washington

98101

Alison Milne
Asst. U.S. Attorney
1000 SW 3rd Ave. Suite 600
Portland, Oregon 97204

I DECLARE UNDER PENALTY OF PERJURY THAT THE FOREGOING IS TRUE
AND CORRECT.
Executed on June 12, 2021

